APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_________
No. 19-5352
_________
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Appellees
v.
ALEX M. AZAR, II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF HEALTH AND HUMAN SERVICES,
Appellant
_________
Consolidated with 19-5353, 19-5354
_________
Appeals from the United States District Court
for the District of Columbia
(No. 1:18-cv-02841)
(No. 1:19-cv-00132)
(No. 1:19-cv-01745)
_________
Argued April 17, 2020
Decided July 17, 2020
_________

2a
Alisa B. Klein, Attorney, U.S. Department of
Justice, argued the cause for appellant. With her on
the briefs were Mark B. Stern, Attorney, Robert P.
Charrow, General Counsel, U.S. Department of
Health & Human Services, Janice L. Hoffman,
Associate General Counsel, Susan Maxson Lyons,
Deputy Associate General Counsel for Litigation, and
Robert W. Balderston, Attorney.
Howard R. Rubin and Robert T. Smith were on the
brief for amici curiae Digestive Health Physicians
Association, et al. in support of appellant.
Catherine E. Stetson argued the cause for appellees.
With her on the brief were Susan M. Cook, Katherine
B. Wellington, Mark D. Polston, Joel McElvain,
Christopher P. Kenny, and Michael LaBattaglia. Kyle
Druding entered an appearance.
Before: SRINIVASAN, Chief Judge, GARLAND and
MILLETT, Circuit Judges.
Opinion for the Court filed by Chief Judge
SRINIVASAN.
SRINIVASAN, Chief Judge: Many hospitals provide
outpatient care at off-site facilities known as “offcampus provider-based departments,” or PBDs.
Certain services offered by hospitals at off-campus
PBDs, such as routine clinic visits, can also be
provided by independent physician practices
unaffiliated with a hospital. Although off-campus
PBDs and independent physician practices can offer
the same service, Medicare until recently reimbursed
those providers at different rates: because off-campus
PBDs are considered hospitals for regulatory

3a
purposes, they were paid a higher rate applicable to
hospitals instead of a lower rate applicable to
physician practices. The result was that, for the same
outpatient service, off-campus PBDs obtained up to
twice as much per patient in Medicare
reimbursements as did physician practices.
The Department of Health and Human Services
determined that the payment differential gave rise to
an economic incentive that induced unnecessary
growth in the volume of outpatient care provided at
off-campus PBDs. HHS thus reduced the rate it paid
hospitals for the most common off-campus PBD
service, “patient evaluation and management,” to
equal the rate paid to physician practices for that
service. HHS justified that reimbursement cut as an
exercise of its statutory authority to adopt “method[s]
for controlling unnecessary increases in the volume”
of covered outpatient services.
42 U.S.C.
§ 1395l(t)(2)(F).
A group of hospitals brought these consolidated
actions, claiming that HHS’s rate reduction for offcampus PBDs falls outside of the agency’s statutory
authority. The district court agreed and set aside the
regulation implementing the rate reduction. Because
we conclude that the regulation rests on a reasonable
interpretation of HHS’s statutory authority to adopt
volume-control methods, we now reverse.
I.
A.
Medicare Part B health insurance covers outpatient
hospital care, including same-day surgery, preventive

4a
and screening services, and physician visits. See 42
U.S.C. §§ 1395j, 1395k. The Department of Health
and Human Services (HHS) sets the rates at which
Medicare will reimburse hospitals for providing such
services according to an intricate statutory system
known as the Outpatient Prospective Payment
System (OPPS). See 42 U.S.C. § 1395l(t).
Under the OPPS, hospitals are not reimbursed for
the actual costs incurred in providing care. Instead,
to help control Medicare expenditures, the statute
calls for HHS to set predetermined payment amounts
for each covered outpatient service. See H.R. Rep. No.
106-436, at 33 (1999). Hospitals then receive that
amount for every instance in which they provide the
service. OPPS rates are revised each year via noticeand-comment rulemaking and are published before
they go into effect. See Amgen, Inc. v. Smith, 357 F.3d
103, 106 (D.C. Cir. 2004).
HHS generally sets the rates using a complex
statutory formula. First, each covered outpatient
service (or group of related services) is assigned an
Ambulatory Payment Classification (APC). 42 U.S.C.
§ 1395l(t)(2)(B).
HHS then establishes “relative
payment weights” for each APC based on the median
cost of providing the relevant services.
Id.
§ 1395l(t)(2)(C). In that relative weighting process,
HHS may decide, for instance, that given the cost to
the hospital, a certain service should be reimbursed at
twice the rate of a different service. Next, each APC’s
relative weight is multiplied by a number known as
the “conversion factor.” Id. § 1395l(t)(3)(D). The same
conversion factor applies to all APCs. Id. Multiplying
an APC’s relative payment weight by the conversion

5a
factor produces a dollar amount, which is the base “fee
schedule amount” for that APC. Id. § 1395l(t)(4)(A).
That amount is subject to a variety of possible further
adjustments, such as adjustments reflecting regional
wage differences, id. § 1395l(t)(4)(A), or “outlier
adjustments” for hospitals facing unusually high
operating costs, id. § 1395l(t)(5).
When setting rates each year, HHS is required to
reassess its choices: what services or groups of
services should make up each APC, what an APC’s
relative payment weight should be, and what
statutory adjustments (such as for labor cost
differences) should be applied. Id. § 1395l(t)(9)(A).
Changes to any of those inputs will alter the payment
rate for a particular service. Any change HHS makes
in those respects, however, must not cause overall
projected expenditures for the next year to increase or
decrease. Id. § 1395l(t)(9)(B). Under this “budgetneutrality” requirement, an increase or decrease in
projected spending must be offset by other changes.
HHS must also update the conversion factor each
year in order to keep up with inflation in general
health care costs. Id. § 1395l(t)(3)(C)(ii), (t)(3)(C)(iv).
Increases to the conversion factor, of course,
proportionately increase overall OPPS outlays. But
adjustments to the conversion factor need not be
implemented in a budget-neutral manner—indeed, it
would make little sense to do so in light of the
objective of keeping pace with inflation.
The OPPS is designed to advance Congress’s goal of
controlling Medicare Part B costs in two ways. First,
the OPPS encourages hospital efficiency by setting

6a
payment rates prospectively and basing the amount
on median cost. Second, because of the budgetneutrality requirement, overall OPPS expenditure
growth should closely track annual increases to the
conversion factor. Those increases are modest and
their amount is prescribed by statute.
Although HHS has significant control over the rate
it will pay hospitals for a specific service under the
OPPS system, the agency has little control over how
frequently hospitals will provide that service.
Consequently, even if payment rates remain constant,
an increase in the amount of services provided will
cause an increase in overall Medicare expenditures.
Congress
addressed
that
possibility
in
subparagraph (2)(F) of the OPPS statute, the
provision centrally in issue in this case.
Subparagraph (2)(F) directs HHS to “develop a
method for controlling unnecessary increases in the
volume of covered [outpatient] services.” Id.
§ 1395l(t)(2)(F). Relatedly, Congress also authorized
HHS to reduce the conversion factor, thereby
shrinking projected overall expenditures, if it
“determines under methodologies described in
[sub]paragraph (2)(F) that the volume of services paid
for . . . increased beyond amounts established through
those methodologies.” Id. § 1395l(t)(9)(C).
B.
Some hospitals provide outpatient care at facilities
known as off-campus provider-based departments
(PBDs), which are located away from the physical site
of the hospital. Off-campus PBDs are considered part
of the hospital for regulatory purposes. See 42 C.F.R.

7a
§ 413.65. For that reason, services provided at offcampus PBDs are reimbursed through the OPPS
system. HHS thus has generally paid hospitals the
same amount for outpatient care provided at an offcampus PBD as for outpatient care provided in the
main hospital.
At least some services provided at off-campus PBDs
can also be provided by freestanding physician offices,
i.e., medical practices unaffiliated with a hospital.
Physician offices are generally reimbursed at a lower
rate for a given service than hospitals, because
hospitals receive a separate “facility” rate inapplicable
to freestanding physician practices. See Medicare
Program: Proposed Changes to Hospital Outpatient
Prospective Payment and Ambulatory Surgical
Center Payment Systems and Quality Reporting
Programs, 83 Fed. Reg. 37,046, 37,142 (July 31, 2018).
Consider the amounts Medicare paid for a service
commonly provided by off-campus PBDs: “evaluation
and management of a patient,” or E&M. In 2017, the
E&M reimbursement rate for off-campus PBDs under
the OPPS was $184.44 for new patients and $158.24
for established patients. By contrast, the 2017 E&M
rate for freestanding physician offices—paid under a
separate system known as the Physician Fee
Schedule—was $109.46 for new patients and $73.93
for established patients. See id. Hospital-affiliated
outpatient departments thus received between 68%
and 114% more in reimbursements per patient for the
same service.
According to the Medicare Payment Advisory
Commission (MedPAC), which was established by

8a
Congress to advise HHS, see Pub. L. No. 105-33
§ 4022, 111 Stat. 251, 350, hospitals reacted to the
incentive created by the payment differential between
off-campus PBDs and independent physician
practices. Almost a decade ago, hospitals began
buying freestanding physician practices and
converting them into off-campus PBDs, without much
change in the facility or the patients served. MedPAC,
Report to the Congress: Medicare Payment Policy 53,
59–61, 75–76 (Mar. 2014), https://go.usa.gov/xdCzV.
MedPAC documented substantial increases in the
provision of E&M services at hospital outpatient
departments and little to no growth in the provision
of the same services at physician offices. See id. at 42.
From 2011 to 2016, the provision of E&M services at
off-campus PBDs grew by 43.8%. MedPAC, Report to
the Congress: Medicare Payment Policy 73 (2018),
https://go.usa.gov/xdCzu.
By comparison, the
provision of E&M services at freestanding physician
practices grew by only 0.4%. Id.
In 2015, Congress attempted to address the
substantial growth in services provided at off-campus
PBDs by enacting section 603 of the Bipartisan
Budget Act of 2015, Pub. L. No. 114-74, 129 Stat. 584,
597–98 (codified at 42 U.S.C. § 1395l(t)(21)). Section
603 adopted something of a compromise approach. On
one hand, it did not touch the reimbursement rates for
existing off-campus PBDs. On the other hand, it
established that off-campus PBDs coming into
existence after the statute’s enactment would no
longer be paid under the OPPS, but instead would be
paid under the “applicable payment system under this
part,” which HHS interpreted to be a rate equivalent

9a
to the Physician Fee Schedule.
42 U.S.C. §
1395l(t)(21)(C).
That change applied to every
service—not just E&M services—provided at new offcampus PBDs.
After section 603’s enactment, though, HHS still
continued to observe steady growth in the volume of
hospital outpatient services. 83 Fed. Reg. at 37,139.
For the years 2016 through 2018, the volume and
intensity of services grew annually by 6.5%, 5.8%, and
5.4%, respectively. Id. And in its proposed OPPS rule
setting rates for 2019, the agency projected that,
without changes, volume would again increase by
5.3% in that year, leading to $75.3 billion in overall
OPPS expenditures. Id. Outlays had been nearly $20
billion less only a few years earlier. Id.
HHS determined that, despite the 2015 enactment
of section 603, “the differences in payment for . . .
services” continued to be “a significant factor in the
shift in services from the physician’s office to the
hospital outpatient department, . . . unnecessarily
increasing hospital outpatient department volume.”
Id. at 37,142. HHS believed that the “higher payment
that is made under the OPPS, as compared to
payment under the [Physician Fee Schedule], [was]
likely to be incentivizing providers to furnish care in
the hospital outpatient setting.” Id. at 37,141. Thus,
although section 603 had removed the incentive for
hospitals to purchase physician practices and convert
them into off-campus PBDs on a going-forward basis,
the statute did not remove the incentive to provide
care in off-campus PBDs already in existence.

10a
In its rule proposing 2019 OPPS rates, HHS
announced that it “consider[ed] the shift of services” it
had observed to be “unnecessary if the beneficiary can
safely receive the same services in a lower cost setting
but is instead receiving services in the higher paid
setting due to payment incentives.” Id. at 37,142. The
agency concluded that E&M services, which are
routine clinic visits, fit the bill, and thus that “the
growth in clinic visits paid under the OPPS is
unnecessary.” Id.
Having found an “unnecessary increase[] in the
volume of covered [outpatient] services,” HHS
proposed to exercise its subparagraph (2)(F) authority
to “develop a method for controlling” the increase. 42
U.S.C. § 1395l(t)(2)(F); 83 Fed. Reg. at 37,142.
Specifically, the agency proposed to cut E&M
reimbursement rates to off-campus PBDs to the
amount HHS pays to freestanding physician offices
for providing the same service. “[C]apping the OPPS
payment at the [Physician Fee Schedule]-equivalent
rate,” the agency explained, “would be an effective
method to control the volume of these unnecessary
services because the payment differential that is
driving the site-of-service decision [would] be
removed.” 83 Fed. Reg. at 37,142.
Notably, HHS proposed to implement the E&M
reimbursement cut in a non-budget-neutral manner.
In other words, the agency would reduce payments
without offsetting increases in reimbursements for
other covered outpatient services. Id. at 37,142–43.
Although the OPPS statute generally requires annual
rate adjustments to be budget-neutral, see 42 U.S.C.
§ 1395l(t)(9)(B), the agency did not believe that

11a
requirement applied to methods for controlling
volume under subparagraph (2)(F). 83 Fed. Reg. at
37,142–43.
HHS chose not to apply the
reimbursement cut in a budget-neutral manner
because doing so “would not appropriately reduce the
overall unnecessary volume of covered [outpatient]
services, and instead would simply shift the
movement of the volume within the OPPS system in
the aggregate.” Id. at 37,143. HHS estimated that the
proposed rule would reduce Medicare’s expenditures
by approximately $610 million in 2019 alone, with an
additional $150 million saved by Medicare
beneficiaries in the form of reduced coinsurance
payments. Id.
After receiving comments, the agency adopted its
proposal as a final rule, with the only change that the
E&M reimbursement cut would be phased in over two
years. See Medicare Program: Changes to Hospital
Outpatient Prospective Payment and Ambulatory
Surgical Center Payment Systems and Quality
Reporting Programs, 83 Fed. Reg. 58,818, 59,004–15
(Nov. 21, 2018).
C.
The American Hospital Association and various
hospitals (whom we will refer to collectively as the
Hospitals) challenged the 2019 rule in these actions,
which were consolidated in the district court for
purposes of addressing the parties’ cross-motions for
summary judgment. See Am. Hosp. Ass’n v. Azar, 410
F. Supp. 3d 142, 146 (D.D.C. 2019). The Hospitals
first argued that HHS’s reduction in reimbursement
for E&M services exceeded the agency’s statutory

12a
authority because the reduction does not qualify as a
“method for controlling unnecessary increases in . . .
volume” under subparagraph (2)(F) of the OPPS
statute. See id. at 150–51. The Hospitals also argued
that HHS’s decision to cut reimbursement to
preexisting off-campus PBDs contravened Congress’s
decision to leave preexisting facilities unaddressed in
section 603 of the Bipartisan Budget Act of 2015. See
id.
The district court agreed with the Hospitals’ first
argument. Id. at 161. The court accordingly vacated
as ultra vires the part of the challenged rule that
reduced E&M reimbursement rates. Id. This appeal
followed.
II.
We must first consider whether we have jurisdiction
to review the Hospitals’ claim. Subparagraph (12)(A)
of the OPPS statute provides that “[t]here shall be no
administrative or judicial review of” certain specified
actions HHS takes in implementing the OPPS,
including “the establishment of . . . methods described
in paragraph (2)(F).” 42 U.S.C. § 1395l(t)(12)(A). The
government contends that HHS’s cut to E&M
reimbursement qualifies as such a “method.” Thus,
the government argues, judicial review of that
reimbursement cut is precluded by statute, and we
should dispose of the case on that basis at the
threshold without examining HHS’s authority to
implement the rate reduction.
We are unpersuaded.
Although subparagraph
(12)(A) forecloses judicial review of the agency’s
“establishment of methods described in paragraph

13a
(2)(F),” the Hospitals’ claim is that the payment
reduction at issue is not a “method[] described in
paragraph (2)(F)” within the meaning of the statute.
As a result, to determine whether the judicial-review
bar applies in this case, we must decide whether the
challenged agency action counts as a “method for
controlling unnecessary increases in the volume of
covered [outpatient] services.” Id. § 1395l(t)(2)(F).
And that latter question is the merits issue presented
here.
Subparagraph (12)(A) therefore is a preclusion-ofreview provision that “merges consideration of the
legality of [agency] action with consideration of the
court’s jurisdiction in cases in which the challenge to
the [agency’s] action raises the question of the
[agency’s statutory] authority.” Amgen, 357 F.3d at
113–14 (quoting COMSAT Corp. v. FCC, 114 F.3d
223, 226–27 (D.C. Cir. 1997)). In such cases, if the
court “find[s] that [the agency] has acted outside the
scope of its statutory mandate, we also find that we
have jurisdiction.” COMSAT, 114 F.3d at 227. Put
differently, “the jurisdiction-stripping provision does
not apply” if the agency’s action fails to qualify as the
kind of action for which review is barred. Southwest
Airlines Co. v. TSA, 554 F.3d 1065, 1071 (D.C. Cir.
2009). As a practical matter, then, the court can
simply skip to the merits question in its analysis. See,
e.g., id.; Amgen, 357 F.3d at 114; COMSAT, 114 F.3d
at 227.
This court has already construed the provision at
issue here as “merging” the preclusion and merits
analysis in that way. In Amgen, we stated that
subparagraph (12)(A)’s preclusion on review of “other

14a
adjustments” to rates by HHS “extends no further
than the Secretary’s statutory authority to make”
such adjustments. 357 F.3d at 112. Accordingly, we
concluded that subparagraph (12)(A) “precludes
judicial review of any adjustment made by the
Secretary pursuant to [his statutory] authority . . . but
not of those for which such authority is lacking.” Id.
at 113. We then proceeded to the merits question,
ultimately holding that the challenged adjustment
was within the agency’s statutory authority and that
we thus lacked jurisdiction. Id. at 114, 118. The
government contends that Amgen’s treatment of
subparagraph (12)(A) was dicta, but regardless, we
fully agree with Amgen’s approach, under which we
analyze the merits to decide whether we have
jurisdiction.
The government attempts to sidestep that result by
pressing us to analyze the Hospitals’ claim under the
‘ultra vires review’ doctrine often attributed to Leedom
v. Kyne, 358 U.S. 184, 79 S.Ct. 180, 3 L.Ed.2d 210
(1958). That doctrine, which we have likened to a
“Hail Mary pass,” “permits, in certain limited
circumstances, judicial review of agency action for
alleged statutory violations even when a statute
precludes review.” Nyunt v. Chairman, Broad. Bd. of
Governors, 589 F.3d 445, 449 (D.C. Cir. 2009). The
government submits that the Hospitals’ challenge
presents such a circumstance and thus must satisfy
the stringent requirements set out in DCH Regional
Medical Center v. Azar, 925 F.3d 503, 509 (D.C. Cir.
2019)—among them, that the agency plainly acted in
excess of its delegated powers and contrary to a

15a
specific, clear, and mandatory prohibition in the
statute. Id.
The Hospitals’ challenge does not implicate the Kyne
framework. We are not asked to remedy a “statutory
violation[] even when a statute precludes review.”
Nyunt, 589 F.3d at 449. Instead, the Hospitals argue
that the “same agency error . . . simultaneously
ma[kes] the jurisdictional bar inapplicable and
compel[s] setting aside the challenged agency action.”
DCH Regional, 925 F.3d at 510 (quotation marks
omitted). Put differently, the Hospitals’ claim is that
subparagraph (12)(A)’s bar on judicial review does not
apply if their merits argument is correct, not that
their merits argument is so obviously correct that we
should consider it despite an applicable bar on our
review.
DCH Regional itself recognized the
distinction between cases involving a “Kyne exception”
and cases such as this one in which “the relevant
statutory bar . . . [is] effectively coextensive with the
merits.” Id. at 509–10.
In sum, subparagraph (12)(A)’s bar on judicial
review is inapplicable unless HHS’s challenged action
qualifies as a “method for controlling unnecessary
increases in . . . volume” under subparagraph (2)(F).
Subparagraph (12)(A) then ultimately does not
preclude judicial scrutiny of HHS’s action for
consistency with subparagraph (2)(F). To be sure,
subparagraph (12)(A) still forecloses inquiry into
“whether [the] challenged agency decision is
arbitrary, capricious, or procedurally defective.”
Amgen, 357 F.3d at 113. But such claims are not
before us here. As to the claim the Hospitals do raise,
the question whether the Hospitals are correct and

16a
the question whether the preclusion provision bars
review of their claim are one and the same. We thus
turn to assessing whether HHS had statutory
authority to implement the challenged E&M
reimbursement reduction.
III.
A.
We examine that question under the traditional
Chevron framework, under which we defer to the
agency’s reasonable interpretation of an ambiguous
statute. See Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 104 S.Ct. 2778, 81 L.Ed.2d
694 (1984). HHS is generally entitled to Chevron
deference on judicial review of its interpretations of
the Medicare statute. See Good Samaritan Hosp. v.
Shalala, 508 U.S. 402, 414, 113 S.Ct. 2151, 124
L.Ed.2d 368 (1993); Baystate Franklin Med. Ctr. v.
Azar, 950 F.3d 84, 92 (D.C. Cir. 2020). The Hospitals
urge us not to apply Chevron in this case for several
reasons, none of which is persuasive.
First, we disagree that HHS forfeited any right to
Chevron deference. To the contrary, HHS explained
in the district court why its interpretation was
entitled to Chevron treatment, invoked the doctrine
twice in its opening brief in our court, and argued for
it again in its reply brief. And in any event, our
decisions hold that Chevron deference is not subject to
forfeiture based on an agency’s litigation conduct if
the agency’s challenged action “interpret[ed] a statute
it is charged with administering in a manner (and
through a process) evincing an exercise of its
lawmaking authority.” SoundExchange, Inc. v.

17a
Copyright Royalty Bd., 904 F.3d 41, 54 (D.C. Cir.
2018). That is the case here. See 83 Fed. Reg. at
59,009, 59,011.
Second, the Hospitals contend that HHS’s
interpretation of subparagraph (2)(F) in the
challenged rule is inconsistent with earlier agency
pronouncements, such that the rule is arbitrary and
unworthy of Chevron deference.
See Encino
Motorcars, LLC v. Navarro, ––– U.S. ––––, 136 S. Ct.
2117, 2126, 195 L.Ed.2d 382 (2016). But HHS has
never taken a definitive position on the scope of
subparagraph (2)(F). The Hospitals point to one
sentence in the agency’s first OPPS rulemaking
cautioning that “[a]dditional study, analysis, and
possible legislative modification would be necessary
before [the agency] could consider implementing” a
volume-control method involving direct changes to
reimbursement.
Medicare Program; Prospective
Payment System for Hospital Outpatient Services, 63
Fed. Reg. 47,552, 47,586 (Sept. 8, 1998). Even
assuming that statement amounted to an
announcement of agency policy, which is far from
clear, its meaning is ambiguous. As the district court
concluded in its decision, the agency might well have
thought that a “possible legislative modification
would be necessary” because its proposed volumecontrol method would have required amending a
separate statutory formula pertaining to its proposal,
not because it believed that direct rate changes could
never qualify as a “method for controlling” volume
under (2)(F). See Am. Hosp. Ass’n, 410 F. Supp. 3d at
157 n.8.

18a
Nor, contrary to the Hospitals’ contention, has HHS
long viewed subparagraph (2)(F) to require volumecontrol methods to be budget-neutral. It is true that
the agency previously implemented a volume-control
method called “packaging,” which bundles related
services together into a single payment group, in a
budget-neutral manner.
See Medicare Program:
Changes to the Hospital Outpatient Prospective
Payment System and CY 2008 Payment Rates, 72
Fed. Reg. 66,580, 66,615 (Nov. 27, 2007). That
example, though, does not establish that HHS viewed
(2)(F) as requiring budget-neutrality. The agency
implemented “packaging” via other statutory
authorities, including its power to alter the
composition of APC groups and their scaled weights.
See id. at 66,611, 66,615; 42 U.S.C. § 1395l(t)(2)(B)–
(C), (t)(9)(A). Those adjustment authorities require
budget-neutrality. See 42 U.S.C. § 1395l(t)(9)(B).
HHS implemented packaging in a budget-neutral way
not because it was a (2)(F) method, but because it
involved other statutory adjustments that call for
budget-neutrality. See 72 Fed. Reg. at 66,615 (budgetneutrality implicated because of “changes in APC
weights and codes” and resulting “shifts in median
costs” of those APCs).
Finally, we reject the Hospitals’ argument that
Chevron does not apply when, as here, our
consideration of the agency’s statutory authority
merges with our consideration of the applicability of a
preclusion provision. See Part II, supra. That result
would mean that Congress’s decision to enact a
preclusion provision operated to enhance judicial
scrutiny and restrict the agency’s leeway.
In

19a
precluding judicial review of certain HHS actions,
though, Congress necessarily intended the opposite
outcome. See Amgen, 357 F.3d at 112 (noting “havoc
that piecemeal [judicial] review of OPPS payments
could bring about”).
B.
Having rejected the Hospitals’ arguments against
applying Chevron, we proceed to review HHS’s
interpretation of subparagraph 1395l(t)(2)(F) under
Chevron’s two-step framework. We first ask whether
“Congress has directly spoken to the precise question
at issue.” Chevron, 467 U.S. at 842, 104 S.Ct. 2778. If
so, our work is done, for we “must give effect to the
unambiguously expressed intent of Congress.” Id. at
843, 104 S.Ct. 2778. But if the statute is “silent or
ambiguous with respect to th[at] specific issue,” id.,
we assume “Congress has empowered the agency to
resolve the ambiguity,” and we defer to the agency’s
interpretation as long as it is reasonable. Util. Air
Reg. Grp. v. EPA, 573 U.S. 302, 315, 134 S.Ct. 2427,
189 L.Ed.2d 372 (2014).
The question at issue is whether HHS may reduce
the OPPS reimbursement for a specific service, and
may implement that cut in a non-budget-neutral
manner, as a “method for controlling unnecessary
increases in the volume of” the service. 42 U.S.C.
§ 1395l(t)(2)(F).
In our view, Congress did not
“unambiguously forbid” the agency from doing so.
Barnhart v. Walton, 535 U.S. 212, 218, 122 S.Ct. 1265,
152 L.Ed.2d 330 (2002); Nat’l Ass’n of Clean Water
Agencies v. EPA, 734 F.3d 1115, 1125 (D.C. Cir. 2013).
We further conclude that the agency reasonably read

20a
subparagraph (2)(F) to allow a service-specific, nonbudget-neutral
reimbursement
cut
in
the
circumstances we consider here. We therefore hold
that the agency acted within its statutory authority.
1.
At step one of Chevron, “the court begins with the
text, and employs ‘traditional tools of statutory
construction’ to determine whether Congress has
spoken directly to the issue.” Prime Time Intern. Co v.
Vilsack, 599 F.3d 678, 683 (D.C. Cir. 2010) (quoting
Chevron, 467 U.S. at 842–43 & n.9, 104 S.Ct. 2778).
Applying those tools, we conclude that the OPPS
statute does not directly foreclose HHS’s challenged
rate reduction.
To begin with, a service-specific, non-budget-neutral
rate reduction falls comfortably within the plain text
of subparagraph (2)(F). Reducing the payment rate
for a particular OPPS service readily qualifies, in
common parlance, as a “method for controlling
unnecessary increases in the volume” of that service.
The lower the reimbursement rate for a service, the
less the incentive to provide it, all else being equal.
Reducing the reimbursement rate thus is naturally
suited to addressing unnecessary increases in the
overall volume of a service provided by hospitals. As
for whether a rate reduction under subparagraph
(2)(F) can be non-budget-neutral, the provision simply
says nothing about budget-neutrality. The text
Congress enacted thus lends considerable support to
the agency’s reading of the statute at Chevron step
one. See Air Transp. Ass’n of Am. v. FAA, 169 F.3d 1,
4 (D.C. Cir. 1999) (because operative “language d[id]

21a
not preclude the [agency’s] interpretation,” the
contrary “inference petitioner would draw as to the
statute’s meaning [was] not inevitable”).
The broader statutory context bolsters the agency’s
view that subparagraph (2)(F) authorizes servicespecific rate cuts. Under our decision in Amgen, the
agency can alter the reimbursement rate for a
particular service under its subparagraph (2)(E)
authority to make “adjustments [it] determine[s] to be
necessary to ensure equitable payments,” 42 U.S.C.
§ 1395l(t)(2)(E); see 357 F.3d at 117 (upholding use of
equitable-adjustment authority to change “payment
amount for a single drug”). If the agency can adjust
payment rates in furtherance of the expansive
purpose of achieving equitable payments, it stands to
reason that the agency can also adjust rates to
accomplish the more focused goal of controlling
unnecessary volume growth. Indeed, as the Amgen
court saw it, HHS’s robust “discretion” to adjust
payment rates is a central feature of the statutory
scheme. 357 F.3d at 114 (quoting H.R. Rep. No. 105149, at 1323 (1997) and H.R. Conf. Rep. No. 105-217,
at 785 (1997)).
The statutory context also supports construing
subparagraph (2)(F) to allow non-budget-neutral
adjustments. If the statute otherwise permits the
agency to make a discretionary rate reduction as a
method of volume control, it would be anomalous for
the law to require the rate cut to be implemented
budget-neutrally.
That would require HHS to
redistribute the costs traceable to the provision of
unnecessary services throughout the OPPS, resulting
in no net savings to Medicare and largely negating the

22a
point of reducing reimbursement in the first place.
See 83 Fed. Reg. at 37,142–43.
The Hospitals warn that, on that reading, nothing
“prevents [HHS] from engaging in cost-control
measures that will disproportionately affect only some
service providers and beneficiaries.” Hospitals Br. 7.
But budget-neutrality offers little protection against
such outcomes. If HHS reduces reimbursements for
cardiac catheterizations and then redistributes the
savings across the OPPS, that still hurts cardiologists
much more than orthopedists even if cardiologists
would get some money back in the form of slightly
elevated reimbursements for other services they
provide. The agency’s ability to advance Congress’s
apparent goals in both budget-neutrality and
subparagraph (2)(F)—namely, keeping growth in
overall OPPS expenditures modest and predictable
year to year, see generally supra pp. 5–6—would be
undermined, not advanced, by requiring the savings
from (2)(F) volume-control methods to be
redistributed across the OPPS.
The Hospitals also contend that, budget-neutrality
aside, subparagraph (2)(F) unambiguously does not
encompass service-specific rate adjustments. The
Hospitals argue in that regard that subparagraph
(2)(F) does no more than enable the agency to develop
an “analytical mechanism for determining whether
there is an unnecessary increase in volume.”
Hospitals Br. 31 (formatting modified).
That
argument rests on reading subparagraph (2)(F) in
conjunction with subparagraph (9)(C), which provides
that:

23a
If
the
Secretary
determines
under
methodologies described in paragraph (2)(F)
that the volume of services paid for under this
subsection
increased
beyond
amounts
established through those methodologies, the
Secretary may appropriately adjust the update
to the conversion factor otherwise applicable in
a subsequent year.
42 U.S.C. § 1395l(t)(9)(C).
According to the Hospitals, subparagraph (9)(C) is
the exclusive way for HHS to implement
subparagraph (2)(F). On that understanding, (2)(F)
empowers the agency to “develop a method” for
diagnosing whether there has been too much growth
in outpatient service volume, and if the agency decides
there has, then it can respond by—and only by—using
its (9)(C) authority to reduce the across-the-board
conversion factor. (Recall that the conversion factor is
the number by which relative payment weights for
services are translated into actual reimbursement
amounts. See supra pp. 4–5.) Subparagraph (2)(F),
under the Hospitals’ argument, does not itself
authorize the agency to act on an unnecessary
increase in volume upon finding that one exists, much
less to do so on a service-specific basis. Rather, the
agency can act only by reducing the overall conversion
factor under (9)(C).
That interpretation of subparagraph (2)(F) is
difficult to square with the provision’s language.
Subparagraph (2)(F) directs the agency to develop “a
method for controlling unnecessary increases” in
volume, not just a method for assessing whether

24a
unnecessary increases exist. And we think it unlikely
that Congress would have confined the agency’s
volume-control arsenal to the very blunt instrument
of reducing the across-the-board conversion factor.
The Hospitals identify no reason to suppose that
Congress would have been concerned only about
overall OPPS volume growth, which the conversion
factor can suitably address, but not about
unwarranted growth in the volume of a single service,
which the conversion factor cannot. Cutting the
conversion factor would reduce reimbursement
equally for every OPPS service, a poorly tailored,
ineffectual “method” of controlling undesirable
volume growth in a specific service.
The Hospitals respond that HHS’s reading of (2)(F)
renders subparagraph (9)(C) redundant, because
cutting the conversion factor fits textually as a
“method for controlling” unnecessary volume. We do
not see the redundancy. Subparagraph (9)(C) appears
to come into play only after the agency first attempts
to address unnecessary volume increases through
methodologies implemented under subparagraph
(2)(F):
“If the Secretary determines under
methodologies described in paragraph (2)(F) that”
volume has “increased beyond amounts established
through those methodologies, the Secretary may
appropriately adjust the update to the conversion
factor applicable in a subsequent year.” 42 U.S.C.
§ 1395l(t)(9)(C) (emphases added). Because the (9)(C)
authority thus kicks in only after the (2)(F) authority
has been attempted and found inadequate, the former
necessarily is not redundant of the latter.

25a
At any rate, even if subparagraph (9)(C) did amount
to surplusage under HHS’s reading of (2)(F), that
would not necessarily compel rejecting the agency’s
interpretation of (2)(F) at Chevron step one. “[A]t
times Congress drafts provisions that appear
duplicative of others—simply, in Macbeth’s words, ‘to
make assurance double sure.’” Fla. Health Scis. Ctr.,
Inc. v. Sec’y of Health & Human Servs., 830 F.3d 515,
520 (D.C. Cir. 2016) (citation omitted)). There may
have been particular reason for Congress to do so
here. In specifying how HHS is to calculate the
conversion factor, the statute envisions that the
conversion factor will generally be “increased” each
year, 42 U.S.C. § 1395l(t)(3)(C), (t)(3)(C)(ii). In that
light, Congress could have thought it desirable to
confirm the agency’s power to reduce the conversion
factor in response to volume growth, as subparagraph
(9)(C) does.
Next, the Hospitals argue that subparagraph
(2)(F)’s silence on budget-neutrality is itself evidence
that Congress could not have intended the provision
to allow direct rate adjustments.
As noted,
subparagraph (2)(F) does not address whether
volume-control “method[s]” under that provision must
be implemented in a budget-neutral fashion. Yet the
OPPS statute nearly always specifies, one way or the
other, whether a rate-adjustment authority must be
exercised budget-neutrally. See Am. Hosp. Ass’n, 410
F. Supp. 3d at 159 (citing provisions). To the
Hospitals, subparagraph (2)(F)’s comparative silence
indicates that Congress did not intend the provision
to authorize changes to payment rates.

26a
But subparagraph (2)(F) undisputedly authorizes
actions other than direct rate adjustments, and for at
least some of those actions, a budget-neutrality
requirement would make no sense. For example, the
Hospitals do not dispute that subparagraph (2)(F)
would allow HHS, as a volume-control method, to
require additional paperwork from hospitals seeking
reimbursement for certain outpatient procedures.
That kind of volume-control method, of course, is
insusceptible to a budget-neutrality mandate. Thus,
(2)(F)’s silence on budget-neutrality tells us little
about whether (2)(F) includes the authority to reduce
a particular OPPS rate.
Lastly, the Hospitals make a similar argument
based on paragraph 1395l(t)(4), which sets out how
“[t]he amount of payment made from the Trust Fund
under this part for a covered [outpatient] service . . .
furnished in a year is determined.” 42 U.S.C.
§ 1395l(t)(4). Paragraph (4) makes no mention of
subparagraph (2)(F). But it expressly allows payment
amounts to be “adjusted” under other provisions, such
as subparagraphs (2)(D) and (2)(E), which authorize
various adjustments including labor-cost adjustments
and equitable adjustments. That, the Hospitals
contend, is strong evidence that Congress did not
intend direct modification of OPPS payment rates via
subparagraph (2)(F).
Text and precedent, however, indicate that not all
changes to OPPS rates must flow through paragraph
(4). A number of provisions in the OPPS statute
authorize HHS to set or adjust reimbursement rates
for specific outpatient services but are unaddressed by
paragraph (4). See 42 U.S.C. § 1395l(t)(14) (providing

27a
separate formula for calculating “amount of payment
under this subsection for a specified covered
outpatient drug”); id. § 1395l(t)(15) (prescribing
“amount [to be] provided for payment for [an
ungrouped] drug or biological under this part”); id.
§ 1395l(t)(16)(D) (requiring payment reduction for a
certain surgical procedure performed by certain
hospitals); id. § 1395l(t)(16)(F)(i)–(ii) (requiring
payment reductions for various imaging services); id.
§ 1395l(t)(22) (authorizing Secretary to make
“revisions to payments” “made under this subsection
for covered [outpatient] services” in order to decrease
opioid prescriptions). Consequently, paragraph (4) is
best understood to set out only the general
mechanism—not the exclusive mechanism—by which
specific OPPS rates for covered services are
“determined.”
Our decision in Amgen supports that understanding
of paragraph (4). In that case, HHS used its equitableadjustment authority under subparagraph (2)(E) to
reduce a “transitional pass-through” payment for a
drug to zero dollars. 357 F.3d at 107. The drug’s
manufacturer complained that HHS could not make
that sort of equitable adjustment because paragraph
(t)(6) lays out a specific formula for determining the
“amount of the [transitional pass-through] payment.”
See 42 U.S.C. § 1395l(t)(6)(A), 1395l(t)(6)(D). Amgen
rejected that argument, holding that (t)(6)’s seemingly
“mandatory” provisions establish only “default OPPS
rate calculations subject to later adjustment.” 357
F.3d at 115. Under Amgen, then, although (t)(6)
specifies in detail how pass-through payments must
be calculated without mentioning subparagraph

28a
(2)(E), the agency can nonetheless adjust the results
of the (t)(6) formula using its (2)(E) authority. The
same, we think, is true—or at least, not
unambiguously untrue—of (t)(4) and (2)(F),
respectively.
We thus conclude that the OPPS statute does not
unambiguously foreclose HHS’s adoption of a servicespecific, non-budget-neutral rate cut as a “method for
controlling unnecessary increases in” volume. 42
U.S.C. § 1395l(t)(2)(F). The statute is at least
ambiguous as to whether that sort of rate adjustment
lies within the agency’s (2)(F) authority.
2.
At Chevron step two, we ask whether the agency’s
interpretation “is based on a permissible construction
of the statute.” Nat’l Ass’n of Clean Water Agencies v.
EPA, 734 F.3d 1115, 1128 (D.C. Cir. 2013) (quoting
Chevron, 467 U.S. at 843, 104 S.Ct. 2778). “A
‘reasonable’ explanation of how an agency’s
interpretation serves the statute’s objectives is the
stuff of which a ‘permissible’ construction is made.”
Northpoint Tech., Ltd. v. FCC, 412 F.3d 145, 151 (D.C.
Cir. 2005) (citation omitted).
The challenged rule meets that standard. The
agency explained that recent growth in the volume of
E&M services provided at off-campus PBDs was
“unnecessary because it appears to have been
incentivized by the difference in payment for each
setting rather than patient acuity.” 83 Fed. Reg. at
59,007. The agency further concluded that reducing
payments in order to eliminate that incentive “would
be an effective method to control the volume of these

29a
unnecessary
services
because
the
payment
differential that is driving the site-of-service decision
will be removed.” Id. at 59,009.
That interpretation of subparagraph (2)(F) is both
“textually defensible” and “fits ‘the design of the
statute as a whole and . . . its object and policy.’” Good
Samaritan Hosp., 508 U.S. at 418, 419, 113 S.Ct. 2151
(quoting Crandon v. United States, 494 U.S. 152, 158,
110 S.Ct. 997, 108 L.Ed.2d 132 (1990)).
It is
reasonable to think that Congress, which cared
enough about unnecessary volume to instruct the
agency to “develop a method for controlling” it, would
have wanted the agency to avoid causing unnecessary
volume growth with its own reimbursement practices.
We thus defer to the agency’s conclusion that (2)(F)
allowed it to address that problem by reducing a
specific rate.
Sustaining HHS’s challenged reduction in this case
would not necessarily leave the agency free “to set any
payment rate for any service, without regard to the
fine-grained statutory scheme enacted by Congress.”
Hospitals Br. 45. It is one thing for HHS to use its
subparagraph (2)(F) authority to eliminate a volumegrowth incentive created, in the agency’s view, by a
differential in its own payment rates. It may be
another thing for the agency to reduce payment for a
service under (2)(F) merely because doing so would
decrease volume that HHS decides is “unnecessary.”
We have no occasion to decide whether an action of
that kind would rest on a reasonable interpretation of
the OPPS statute. Cf. Nat. Res. Def. Council v. EPA.,
777 F.3d 456, 469 (D.C. Cir. 2014) (agency’s
interpretation cannot be “untethered to Congress’s

30a
approach” at Chevron step two); Amgen, 357 F.3d at
117 (equitable adjustments may not “work basic and
fundamental changes in the scheme Congress created
in the Medicare Act” (quotation omitted)).
In short, we conclude under Chevron that HHS’s
reduction in reimbursement for E&M services
provided by off-campus PBDs qualifies as a “method
for controlling unnecessary increases in the volume of
covered
[outpatient]
services.”
42
U.S.C.
§ 1395l(t)(2)(F). Because the challenged rate cut is
thus a “method[] described in paragraph (2)(F),”
judicial review of that action is precluded by the
statute. See id. § 1395l(t)(12)(A). Consequently,
neither we nor the district court has jurisdiction over
the Hospitals’ challenge.
IV.
The Hospitals argue in the alternative that HHS’s
decision to reduce E&M reimbursement to off-campus
PBDs contravenes section 603 of the Bipartisan
Budget Act of 2015. As explained, Congress enacted
that provision in response to reports that the payment
differential
between
off-campus
PBDs
and
freestanding physician practices had induced
hospitals to purchase those practices. Section 603
established that services performed at off-campus
PBDs would no longer be paid under the OPPS but
instead would be paid under a scheme approximating
the Physician Fee Schedule.
See 42 U.S.C.
§ 1395l(t)(1)(B)(v), 1395l(t)(21)(C).
But the law
exempted “department[s] of a provider . . . that
[furnished covered outpatient services] prior to
November 2, 2015.” Id. § 1395l(t)(21)(B)(ii). In the

31a
Hospitals’ view, Congress’s decision to leave the rates
paid to preexisting off-campus PBDs unaddressed in
section 603 means that the statute should be read to
bar HHS from cutting reimbursement rates for those
facilities.
Because the Hospitals’ section 603 argument targets
agency action we have already determined qualifies as
a “method[] described in paragraph (2)(F),” we are
doubtful we have jurisdiction to consider it. See id.
§ 1395l(t)(12)(A).
In any event, we reject the
argument on the merits. (The law of our circuit allows
a court to assume hypothetical statutory jurisdiction
even if we cannot assume Article III jurisdiction. See
Kramer v. Gates, 481 F.3d 788, 791 (D.C. Cir. 2007).)
Nothing in the text of section 603 indicates that
preexisting off-campus PBDs are forever exempt from
adjustments to their reimbursement. Rather, the text
of the law exempts those providers from the change
mandated by section 603 itself, leaving the exempted
providers subject to all the provisions of the OPPS
statute, including subparagraph (2)(F). It bears
noting, moreover, that section 603’s exemption of
preexisting off-campus PBDs from the reimbursement
reductions effected by that statute retains practical
effect for all OPPS services except the one type of
service (E&M services) addressed by the challenged
rule.
Trying a different approach, the Hospitals contend
that section 603 demonstrates Congress’s judgment
that increases in volume at preexisting off-campus
PBDs are not “unnecessary” in the sense
contemplated by subparagraph (2)(F). But even
assuming that were true for increases in volume

32a
occurring by 2015, when section 603 was enacted, it
would not mean that Congress considered acceptable
the continued volume increases later taking place in
2016, 2017, or 2018, on which HHS relied in adopting
the challenged rule. See 83 Fed. Reg. at 37,139;
MedPAC, Report to the Congress: Medicare Payment
Policy 73 (Mar. 2018), https://go.usa.gov/xdCzu.
Section 603 thus does not stand in the way of the
agency’s challenged rate reduction under (2)(F).
*****
For the foregoing reasons, we reverse the judgment
of the district court.
So ordered.

33a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_________
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Plaintiffs,
v.
ALEX M. AZAR II, SECRETARY OF THE DEPARTMENT OF
HEALTH AND HUMAN SERVICES,
Defendant.
_________
Civil Action No. 18-2841 (RMC)
_________
Signed 09/17/2019
_________
MEMORANDUM OPINION
ROSEMARY M. COLLYER, United States District
Judge
Under Medicare Part B, the Centers for Medicare &
Medicaid Services (CMS) pays hospital outpatient
departments at predetermined rates for patient
services, and Congress has established the Outpatient
Prospective Payment System by which CMS is to set
and pay those rates. CMS came to believe that the rate
for certain clinic-visit services at a specific subset of
these outpatient departments—familiarly, off-campus
provider-based departments—was too high and that
patients could receive similar services from freestanding physician offices at lower cost to the
government and to taxpayers. Accordingly, CMS

34a
promulgated a rule in 2018 lowering the payment rate
for clinic-visit services at off-campus provider-based
departments to match the rate for similar services at
physician offices, in order to shift patients towards the
latter.
Plaintiffs are hospital organizations which have
seen their payment rates cut. They argue that the
method by which CMS has cut their rates has no place
in the statutory scheme established by Congress, and
further that Congress has already decided as a matter
of policy and practicality that off-campus providerbased departments should be paid at higher rates
than physician offices for similar services. In short,
Plaintiffs argue that CMS’ 2018 rule is ultra vires.
CMS opposes. Both parties move for summary
judgment.
The Court has given close attention to the parties’
arguments and the statutory scheme, which, as
relevant, is both simple and detailed. For the reasons
below, the Court finds that CMS exceeded its
statutory authority when it cut the payment rate for
clinic services at off-campus provider-based clinics.
The Court will grant Plaintiffs’ motion, deny CMS’
cross-motion, vacate the rule, and remand.
I. BACKGROUND
The Medicare program, established by Title XVIII of
the Social Security Act, 42 U.S.C. § 1395 et seq.,
provides federally funded medical insurance to the
elderly and disabled. Medicare Part A addresses
insurance coverage for inpatient hospital care, home
health care, and hospice services. Id. § 1395c.
Medicare Part B addresses supplemental coverage for

35a
other types of care, including outpatient hospital care.
Id. §§ 1395j, 1395k.
A.

The Outpatient
System

Prospective

Payment

Under Medicare Part B, CMS directly reimburses
hospital outpatient departments for providing
outpatient department (OPD) services to Medicare
beneficiaries, which payments are made through the
elaborate Outpatient Prospective Payment System
(occasionally, OPPS). See generally 42 U.S.C.
§ 1395l(t). Implemented as part of the Balanced
Budget Act of 1997, Pub. L. No. 105-33, 111 Stat. 251,
the Outpatient Prospective Payment System does not
reimburse hospitals for their actual costs of providing
OPD services. Rather, as with Medicare generally and
in an effort to control costs, the Outpatient
Prospective Payment System pays for OPD services at
pre-determined rates. See Amgen, Inc. v. Smith, 357
F.3d 103, 106 (D.C. Cir. 2004). Those payment rates
are determined as follows: OPD services which are
clinically comparable or which require similar
resource usage are grouped together and assigned an
Ambulatory Payment Classification (occasionally,
APC). 42 U.S.C. § 1395l(t)(2)(B). A formula is used to
calculate the relative payment weight of each
Ambulatory Payment Classification against other
APCs, based on the average cost of providing OPD
services in previous years. See id. § 1395l(t)(2)(C).
Each Ambulatory Payment Classification’s relative
payment weight is then multiplied by an Outpatient
Prospective Payment System “conversion factor”—
which is the same for, and applies uniformly to, all
APCs—to reach the fee schedule amount for each

36a
APC. Id. § 1395l(t)(3)(D). Ultimately, the actual
amount paid to the hospital is the calculated fee
schedule amount adjusted for regional wages,
transitional pass-through payments, outlier costs,
“and other adjustments as determined to be necessary
to ensure equitable payments, such as adjustments
for certain classes of hospitals,” id. § 1395l(t)(2)(D)(E), less an applicable deductible and modified by a
“payment proportion.” See id. § 1395l(t)(4).
Every year, CMS must review the groups, relative
payment weights, and wage and other adjustments for
each Ambulatory Payment Classification to account
for changes in medical practice or technology, new
services, new cost data, and other relevant
information and factors. Id. § 1395l(t)(9)(A). This
annual review is conducted with an important caveat:
any adjustment to the groups, relative payment
weights, or adjustments must be budget neutral,
meaning that it cannot cause a change in CMS’
estimated expenditures for OPD services for the year.
See id. § 1395l(t)(9)(B); cf. id. § 1395l(t)(9)(D)-(E)
(requiring initial wage, outlier, and other adjustments
also be budget neutral). Thus, decreases or increases
in spending caused by one adjustment must be offset
with increases or decreases in spending by another.
CMS must also update annually the Outpatient
Prospective Payment System conversion factor,
generally to account for the inflation rate for the cost
of medical services, see id. § 1395l(t)(3)(C)(iv), but
sometimes for other reasons, as discussed below.
Unlike adjustments to Ambulatory Payment
Classifications
under
paragraph
(t)(9)(A),
adjustments to the conversion factor do not need to be
budget neutral. See generally id. § 1395l(t)(3)(C)

37a
(describing conversion factor inputs). However,
because the same conversion factor applies equally to
all Ambulatory Payment Classifications, adjustments
to the conversion factor cannot be used to change the
fee schedule for specific APCs. In other words,
changes to the conversion factor affect total spending
and not spending on specific services.
The Outpatient Prospective Payment System
controls overall costs by incentivizing hospital
outpatient departments to provide OPD services at or
below the average cost for such services. That said,
while the Outpatient Prospective Payment System
limits the amount Medicare will pay for each service,
it does not limit the volume or mix of services provided
to a patient. Concerned that fee schedule limits would
not
adequately
limit
increases
in
overall
expenditures, Congress included as part of the
Outpatient Prospective Payment System two
provisions at issue here. Under paragraph (t)(2)(F),
“the Secretary shall develop a method for controlling
unnecessary increases in the volume of covered OPD
services.” Id. § 1395l(t)(2)(F). Further, under
paragraph (t)(9)(C), “[i]f the Secretary determines
under methodologies described in paragraph (2)(F)
that the volume of services paid for under this
subsection increased beyond amounts established
through those methodologies, the Secretary may
appropriately adjust the update to the conversion
factor otherwise applicable in a subsequent year.” Id.
§ 1395l(t)(9)(C).

38a
B. Off-Campus Provider-Based Departments,
Physician Offices, and the Bipartisan
Budget Act of 2015
Many medical services that were once only offered
in an inpatient hospital setting can now be provided
by hospital outpatient departments whereby the
patient does not spend the night. Medicare
traditionally welcomed these cheaper alternatives to
inpatient care and, to meet the growing demand for
these services, some hospitals have established offcampus provider-based departments (occasionally,
PBDs), which are outpatient departments at facilities
separated by a specific distance (or more) from the
physical campus of the hospital with which they are
affiliated. See 42 C.F.R. § 413.65(e). Although not
physically proximate to their affiliated hospital’s main
campus,1 off-campus provider-based departments are
so closely integrated into the same system that they
are considered part of the hospital itself. This allows
off-campus provider-based departments to offer more
comprehensive services to their patients but also
subjects off-campus provider-based departments to
the same regulatory requirements as the main
hospital. See 42 C.F.R. § 413.65 (describing regulatory
requirements
for
off-campus
provider-based
departments). Because they are part of the same
system and face the same regulatory requirements
and regulatory costs as hospitals, off-campus

1

For example, an off-campus provider-based department may
be located away from the main hospital because of space
constraints at the main campus, or because the hospital wants
to have an affiliated facility in a different (oftentimes
underserved) neighborhood.

39a
provider-based departments have generally been paid
at the same rates hospitals are paid for OPD services.2
That said, some comparable outpatient medical
services can also be provided by free-standing
physician offices, which are medical practices not
integrated with, or part of, a hospital. See 42 C.F.R.
§ 413.65(a)(2). While physician offices do not provide
the same array of services as off-campus providerbased departments, they also do not bear the same
regulatory requirements and costs as hospitals.
Accordingly, CMS pays physician offices for
outpatient medical services according to the lowerpaying Medicare Physician Fee Schedule instead of
the Outpatient Prospective Payment System. As
relevant to this case, in 2017 the Outpatient
Prospective Payment System rate for the most
voluminous OPD service provided by off-campus
provider-based
departments,
“evaluation
and
management of a patient” (E&M), 3 was $184.44 for
new patients and $109.46 for established patients
while the Physician Fee Schedule rate for the
comparable service at a physician office was $109.46
for a new patient and $73.93 for an established
patient. See 83 Fed. Reg. 37,046, 37,142 (July 31,
2018) (Proposed Rule).
Until 2015, all off-campus provider-based
departments were paid according to the Outpatient

2

Not all are paid the same amounts, for reasons described
below.
3

Technically, E&M services fall under Healthcare Common
Procedure Coding System (HCPCS) code G0463, billed under
APC 5012 (Clinic Visits and Related Services).

40a
Prospective Payment System. At that time, the
volume of OPD services had increased by 47 percent
over the decade ending in calendar year 2015 and, in
the five years from 2011 to 2016, combined program
spending and beneficiary cost-sharing (i.e., copayments) rose by 51 percent, from $39.8 billion to
$60.0 billion. See Proposed Rule at 37,140. There are
many possible explanations for this increase. For one,
the Medicare-eligible population grew substantially
during the same time period. See Medicare Board of
Trustees, 2018 Annual Report of the Board of
Trustees of the Federal Hospital Insurance and
Federal Supplementary Medical Insurance Trust
Funds
181
(2018),
available
at
https://go.cms.gov/2m5ZCok. For another, advances in
medical technology shifted services from inpatient
settings to outpatient settings. See Ken Abrams,
Andreea Balan-Cohen & Priyanshi Durbha, Growth
in Outpatient Care, Deloitte (Aug. 15, 2018), available
at https://bit.ly/2nOkG05.
However, the Medicare Payment Advisory
Commission
(MedPAC),
an
independent
congressional agency which advises Congress on
issues related to Medicare, long believed that another
major reason for this increase was the financial
incentive created by the Outpatient Prospective
Payment System compared to the Physician Fee
Schedule. See MedPAC, Report to the Congress:
Medicare Payment Policy 69-70 (Mar. 2017). That is,
because off-campus provider-based departments are
paid at higher rates than physician offices, MedPAC
advised that hospitals were buying existing physician
offices and converting them into off-campus providerbased departments, sometimes without a change of

41a
location or patients, unnecessarily causing CMS to
incur higher costs. See id. To combat this trend,
MedPAC repeatedly recommended that Congress
authorize CMS to equalize payment rates under both
the Outpatient Prospective Payment System and
Physician Fee Schedule for certain services, including
E&M services, at all off-campus provider-based
departments. See id. at 70-71; see also id. at 69 (“Onethird of the growth in outpatient volume from 2014 to
2015 was due to an increase in the number of
evaluation and management (E&M) visits billed as
outpatient services.”). Hospitals responded by
advising Congress that MedPAC’s recommendation
ignored the higher costs required to operate a hospital
and would force some existing off-campus providerbased departments, which relied on the rates set by
the Outpatient Prospective Payment System, to
reduce their services or close completely. See, e.g.,
Letter from Atul Grover, Chief Pub. Policy Officer,
Ass’n of Am. Med. Colls., to The Hon. John Barrasso,
et
al.
(Jan.
13,
2012),
available
at
http://bit.ly/2LVEXOT.
Congress ended the debate, at least momentarily,
when it adopted Section 603 of the Bipartisan Budget
Act of 2015, Pub. L. No. 114-74, § 603, 129 Stat. 584,
597 (2015). That 2015 statute neither equalized
payment rates for physicians offices and off-campus
provider-based departments, as MedPAC had
recommended, nor left the Outpatient Prospective
Payment System untouched, as the hospitals
requested. Instead, Congress chose a middle path:
Off-campus provider-based departments that were
billing under the Outpatient Prospective Payment
System as of November 2, 2015 (now “excepted off-

42a
campus PBDs”) were permitted to continue that
practice. See 42 U.S.C. § 1395l(t)(21)(B)(ii). However,
off-campus provider-based departments which were
not billing under the Outpatient Prospective Payment
System as of November 2, 2015, i.e., new off-campus
provider-based departments (or “nonexcepted offcampus PBDs”), would be paid according to a different
rate system to be selected by CMS. See id.
§ 1395l(t)(21)(C). In practice, CMS continues to pay
nonexcepted off-campus PBDs under the Outpatient
Prospective Payment System but applies a
“[Physician Fee Schedule] Relativity Adjustor” which
approximates the rate the operative Physician Fee
Schedule would have paid. See 81 Fed. Reg. 79,562,
79,726 (Nov. 14, 2016).
C. The Final Rule and Plaintiffs’ Challenge
Despite these changes, the volume of OPD services
provided by excepted off-campus provider-based
departments grew. When Congress passed the
Bipartisan Budget Act of 2015, expenditures by the
Outpatient Prospective Payment System were
approximately $56 billion and increasing at an annual
rate of about 7.3 percent, with the volume and
intensity of outpatient services increasing by 3.5
percent. See Proposed Rule at 37,139. In 2018, CMS
estimated that, without intervention, expenditures in
2019 would rise to $75 billion (an increase of 8.1
percent over 2018), with the volume and intensity
increasing by 5.3 percent. See id. at 37,139. CMS thus
proposed to implement a “method for controlling
unnecessary increases in the volume of covered OPD
services.” See generally id. at 37,138-143; cf. 42 U.S.C.
§ 1395l(t)(2)(F). Specifically, CMS determined that
many of the E&M services provided by off-campus

43a
provider-based departments were “unnecessary
increases in the volume of outpatient department
services.” Such services were not deemed medically
“unnecessary” but financially “unnecessary” because
“these services could likely be safely provided in a
lower cost setting,” i.e., at physician offices.4 Proposed
Rule at 37,142. More specifically, CMS determined
that the growth of E&M services provided by offcampus provider-based departments was due to the
higher payment rate available to excepted off-campus
provider-based departments under the Outpatient
Prospective Payment System. Id. CMS proposed to
solve its financial problem by applying the
corresponding Physician Fee Schedule rate for E&M
services to excepted off-campus PBDs, thereby
equalizing the payment rate for E&M services
provided by excepted off-campus PBDs, nonexcepted
off-campus PBDs, and physician offices alike. Id. at
37,142.
CMS also determined that it could not control the
volume of financially “unnecessary” OPD services in a
budget-neutral fashion, since this would “simply shift
the movement of the volume within the OPPS system
4

As a general matter, CMS uses expenditures over targeted
levels to measure “unnecessary” increases in the volume of OPD
services, albeit not without criticism. See, e.g., 63 Fed. Reg.
47,552, 47,586 (Sept. 8, 1998) (“[W]e are examining a number of
mechanisms to control unnecessary increases, as reflected by
expenditure levels, in the volume of covered outpatient
department services.”); 65 Fed. Reg. 18,434, 18,503 (Apr. 7, 2000)
(“Others argued that an expenditure target is not a reliable way
to distinguish the growth of necessary versus unnecessary
services.”); 66 Fed. Reg. 44,672, 44,707 (Aug. 24, 2001) (noting
MedPAC’s recommendation that CMS “not use an expenditure
target to update the conversion factor”).

44a
in the aggregate.” Id. at 37,143. Therefore, CMS
proposed to implement its new approach in a nonbudget-neutral manner, asserting that the budget
neutrality requirements of paragraphs (t)(2)(D)-(E)
and (t)(9)(B) do not apply to “methods” developed
under paragraph (t)(2)(F) and that its new approach
constituted such a method. Id. CMS estimated that
this approach would save approximately $610 million
in 2019 alone. Id.
CMS received almost 3,000 comments on the
Proposed Rule, many of which argued that CMS
lacked statutory authority to implement the proposed
method. Nonetheless, on November 21, 2018, CMS
issued a Final Rule implementing the proposed
method effective January 1, 2019. See generally
Medicare Program: Changes to Hospital Outpatient
Prospective Payment and Ambulatory Surgical Center
Payment Systems and Quality Reporting Programs,
83 Fed. Reg. 58,818, 59,004-15 (Nov. 21, 2018) (Final
Rule). The only substantive change between the
Proposed Rule and the Final Rule was that
implementation of the full E&M rate cut was
staggered over two years, saving an estimated $300
million in 2019, with additional savings subsequent.
Id. at 59,004.
Plaintiffs are hospital organizations and related
trade groups that have provided services with
payment rates affected by the Final Rule, have
submitted claims for payment by Medicare, and have
appealed determinations on those claims to CMS. The
Defendant is Alex M. Azar, in his official capacity as
the Secretary of the Department of Health and
Human Services. Plaintiffs argue that the Final Rule
is contrary to both the Medicare statutory scheme and

45a
the policy decision reached by Congress under Section
603 of the Bipartisan Budget Act of 2015 and is
therefore ultra vires. Both parties have moved for
summary judgment; the matter is now ripe.5
II. LEGAL STANDARD
Under Rule 56 of the Federal Rules of Civil
Procedure, summary judgment shall be granted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a);
accord Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
247, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986). “In a case
involving review of a final agency action under the
Administrative Procedure Act, however, the standard
set forth in Rule 56[ ] does not apply because of the
limited role of a court in reviewing the administrative
record.” Sierra Club v. Mainella, 459 F. Supp. 2d 76,
89 (D.D.C. 2006) (internal citation omitted); see also
Charter Operators of Alaska v. Blank, 844 F. Supp. 2d
122, 126-27 (D.D.C. 2012). Under the APA, the
agency’s role is to resolve factual issues to reach a
decision supported by the administrative record,
while “ ‘the function of the district court is to
determine whether or not as a matter of law the
evidence in the administrative record permitted the
5

On August 26, 2019, the Court consolidated two cases
challenging the same Final Rule: Am. Hosp. Ass’n v. Azar, No.
18-2841 (RMC), and Univ. of Kansas Hosp. Auth. v. Azar, No. 19132 (RMC). See 8/26/2019 Minute Order. Although each set of
plaintiffs asserts a different legal vehicle to bring their claim—
non-statutory review and APA review, respectively—both
challenge the same Final Rule on purely legal grounds with
largely overlapping, and not inconsistent, legal arguments. Both
legal theories are addressed herein.

46a
agency to make the decision it did.’ ” Sierra Club, 459
F. Supp. 2d at 90 (quoting Occidental Eng’g Co. v.
INS, 753 F.2d 766, 769-70 (9th Cir. 1985)). “Summary
judgment thus serves as the mechanism for deciding,
as a matter of law, whether the agency action is
supported by the administrative record and otherwise
consistent with the APA standard of review.” Id.
(citing Richards v. INS, 554 F.2d 1173, 1177 & n.28
(D.C. Cir. 1977)).
Plaintiffs’ argument that the Secretary acted ultra
vires is premised on three basic tenets of
administrative law. First, “an agency’s power is no
greater than that delegated to it by Congress.” Lyng
v. Payne, 476 U.S. 926, 937, 106 S.Ct. 2333, 90
L.Ed.2d 921 (1986); see also Transohio Sav. Bank v.
Dir., Office of Thrift Supervision, 967 F.2d 598, 621
(D.C. Cir. 1992). Second, agency actions beyond
delegated authority are ultra vires and should be
invalidated. Transohio, 967 F.2d at 621. Third, courts
look to an agency’s enabling statute and subsequent
legislation to determine whether the agency has acted
within the bounds of its authority. Univ. of D.C.
Faculty Ass’n/NEA v. D.C. Fin. Responsibility &
Mgmt. Assistance Auth., 163 F.3d 616, 620-21 (D.C.
Cir. 1998) (explaining that ultra vires claims require
courts to review the relevant statutory materials to
determine whether “Congress intended the [agency]
to have the power that it exercised when it [acted]”).
When reviewing an agency’s interpretation of its
enabling statute and the laws it administers, courts
are guided by “the principles of Chevron, U.S.A., Inc.
v. Natural Resources Defense Council, Inc., 467 U.S.
837, 104 S.Ct. 2778, 81 L.Ed.2d 694 (1984).” Mount
Royal Joint Venture v. Kempthorne, 477 F.3d 745, 754

47a
(D.C. Cir. 2007) (internal citations omitted). Chevron
sets forth a two-step inquiry. The initial question is
whether “Congress has directly spoken to the precise
question at issue.” Chevron, 467 U.S. at 843, 104 S.Ct.
2778. If so, then “that is the end of the matter” because
both courts and agencies “must give effect to the
unambiguously expressed intent of Congress.” Id. at
842-43, 104 S.Ct. 2778. To decide whether Congress
has addressed the precise question at issue, a
reviewing court applies “ ‘the traditional tools of
statutory construction.’ ” Fin. Planning Ass’n v. SEC,
482 F.3d 481, 487 (D.C. Cir. 2007) (quoting Chevron,
467 U.S. at 843 n.9, 104 S.Ct. 2778). It analyzes “the
text, structure, and the overall statutory scheme, as
well as the problem Congress sought to solve.” Id.
(citing PDK Labs. Inc. v. DEA, 362 F.3d 786, 796 (D.C.
Cir. 2004); Sierra Club v. EPA, 294 F.3d 155, 161
(D.C. Cir. 2002)). When the statute is clear, the text
controls and no deference is extended to an agency’s
interpretation in conflict with the text. Chase Bank
USA, N.A. v. McCoy, 562 U.S. 195, 131 S.Ct. 871, 178
L.Ed.2d 716 (2011).
If the statute is ambiguous or silent on an issue, a
court proceeds to the second step of the Chevron
analysis and determines whether the agency’s
interpretation is based on a permissible construction
of the statute. Chevron, 467 U.S. at 843, 104 S.Ct.
2778; Sherley v. Sebelius, 644 F.3d 388, 393-94 (D.C.
Cir. 2011). Under Chevron Step Two, a court
determines the level of deference due to the agency’s
interpretation of the law it administers. See Mount
Royal Joint Venture, 477 F.3d at 754. Where, as here,
“an agency enunciates its interpretation through
notice-and-comment
rule-making
or
formal

48a
adjudication, [courts] give the agency’s interpretation
Chevron deference.” Id. at 754 (citing United States v.
Mead Corp., 533 U.S. 218, 230-31, 121 S.Ct. 2164, 150
L.Ed.2d 292 (2001)). That is, an agency’s
interpretation that is permissible and reasonable
receives controlling weight,6 id., “even if the agency’s
reading differs from what the court believes is the best
statutory interpretation,” see Nat’l Cable &
Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S.
967, 980, 125 S.Ct. 2688, 162 L.Ed.2d 820 (2005). Such
broad deference is particularly warranted when the
regulations at issue “concern[ ] a complex and highly
technical regulatory program.” Thomas Jefferson
Univ. v. Shalala, 512 U.S. 504, 512, 114 S.Ct. 2381,
129 L.Ed.2d 405 (1994) (internal quotation marks and
citation omitted).
III. ANALYSIS
A. Reviewability
The government contends that this Court lacks
jurisdiction to review the Final Rule under the APA
because Congress has precluded judicial review of the
development of the Outpatient Prospective Payment
System, including its methods and adjustments, and
because Plaintiffs have failed to exhaust their
administrative remedies under the Medicare statute.

6

An interpretation is permissible and reasonable if it is not
arbitrary, capricious, or manifestly contrary to the statute.
Mount Royal Joint Venture, 477 F.3d at 754.

49a
1. Preclusion of Judicial Review
Agency action is subject to judicial review under the
APA unless the statute precludes review, or the
agency action is committed to agency discretion by
law. See COMSAT Corp. v. FCC, 114 F.3d 223, 226
(D.C. Cir. 1997) (citing 5 U.S.C. § 701(a)). The statute
specifies one such limitation:
There shall be no administrative or judicial
review under section 1395ff of this title, 1395oo
of this title, or otherwise of—
(A) the development of the classification system
under
paragraph
(2),
including
the
establishment of groups and relative payment
weights for covered OPD services, of wage
adjustment factors, other adjustments, and
methods described in paragraph (2)(F).
42 U.S.C. § 1395l(t)(12)(A) (emphasis added). The
government argues here that the Final Rule imposed
a rate cut as a “method” developed under paragraph
(t)(2)(F) and so court review is barred. Cf. id.
§ 1395l(t)(2)(F) (“[T]he Secretary shall develop a
method for controlling unnecessary increases in the
volume of covered OPD services.”).
Despite the bar against Medicare review in some
contexts, “[t]here is a strong presumption that
Congress intends judicial review of administrative
action, and it can only be overcome by a clear and
convincing evidence that Congress intended to
preclude the suit.” Amgen, 357 F.3d at 111 (internal
citations and quotations omitted). “The presumption
is particularly strong that Congress intends judicial
review of agency action taken in excess of delegated

50a
authority.” Id. “Such review is favored . . . ‘if the
wording of a preclusion clause is less than absolute.’ ”
Id. (quoting Dart v. United States, 848 F.2d 217, 221
(D.C. Cir. 1988)). “Whether and to what extent a
particular statute precludes judicial review is
determined not only from its express language, but
also from the structure of the statutory scheme, its
objectives, its legislative history, and the nature of the
administrative action involved.” Block v. Cmty.
Nutrition Inst., 467 U.S. 340, 346, 104 S.Ct. 2450, 81
L.Ed.2d 270 (1984).
Applied to this case, paragraph (t)(12)(A) plainly
shields a “method” to control volume in outpatient
departments from judicial review. To determine
whether that shield applies, though, the Court must
ascertain, consistent with Plaintiffs’ ultra vires
claims, whether what CMS calls a “method” satisfies
the statute. That is, CMS cannot shield any action
from judicial review merely by calling it a “method,”
even if it is not that. Accordingly, “the determination
of whether the court has jurisdiction is intertwined
with the question of whether the agency has authority
for the challenged action, and the court must address
the merits to the extent necessary to determine
whether the challenged agency action falls within the
scope of the preclusion on judicial review.” Id. at 113;
see also COMSAT, 114 F.3d at 227 (“The no-review
provision . . . merges consideration of the legality of
the [agency’s] action with consideration of this court’s
jurisdiction in cases in which the challenge to the
[agency’s] action raises the question of the [agency’s]
authority to enact a particular amendment.”).
Because, as explained below, the Court finds that
CMS’ action here does not constitute a “method”

51a
within the meaning of the statute, the Court also finds
that paragraph (t)(12)(A) does not preclude judicial
review of Plaintiffs’ claims.7
2. Exhaustion
As argued by the government, Section 405(g) of the
Medicare statute requires a plaintiff to obtain
administrative review of its claims before filing suit in
court. See 42 U.S.C. § 405(g); see also Am. Hosp. Ass’n
v. Azar, 895 F.3d 822, 825 (D.C. Cir. 2018) (describing
the Medicare statute channeling provisions).
Specifically, Section 405(g) has two requirements: (1)
“presentment” of the claim; and (2) exhaustion of
administrative remedies. See Am. Hosp. Ass’n, 895
F.3d at 825-26. The government does not
substantially argue that Plaintiffs have failed to
present their claim. But the government does argue
that Plaintiffs have not fully availed themselves of the
administrative review process. Plaintiffs concede that
they have not exhausted their administrative
remedies fully but argue that the requirement of

7

Certain plaintiffs argue that they may bring a non-statutory
ultra vires claim, even if review under the APA is precluded. See
Reply in Supp. of Pls.’ Mot. for Summ. J. [Dkt. 25] at 11-14. True,
“the case law in this circuit is clear that judicial review is
available when an agency acts ultra vires.” Aid Ass’n for
Lutherans v. U.S. Postal Serv., 321 F.3d 1166, 1173 (D.C. Cir.
2003). But non-statutory claims may also be precluded and the
standard for determining whether non-statutory review is
limited is the same as under the APA. See Dart, 848 F.2d at 221
(“If the wording of a preclusion clause is less than absolute, the
presumption of judicial review . . . is favored when an agency is
charged with acting beyond its authority.”). Thus, the analysis
and outcome are the same.

52a
exhaustion should be waived because
administrative review would be futile.

further

“Futility may serve as a ground for excusing
exhaustion, either on its own or in conjunction with
other factors.” Nat’l Ass’n for Home Care & Hospice,
Inc. v. Burwell, 77 F. Supp. 3d 103, 110 (D.D.C. 2015)
(citing Tataranowicz v. Sullivan, 959 F.2d 268, 274
(D.C. Cir. 1992)). Futility applies where exhaustion
would be “clearly useless,” such as where the agency
“has indicated that it does not have jurisdiction over
the dispute, or because it has evidenced a strong stand
on the issue in question and an unwillingness to
reconsider the issue.” Randolph-Sheppard Vendors v.
Weinberger, 795 F.2d 90, 106 (D.C. Cir. 1986). That
said, the ordinary standard for futility in
administrative law cases is inapplicable in Medicare
cases. See Weinberger v. Salfi, 422 U.S. 749, 766, 95
S.Ct. 2457, 45 L.Ed.2d 522 (1975) (stating that
§ 405(g) is “more than simply a codification of the
judicially developed doctrine of exhaustion, and may
not be dispensed with merely by a judicial conclusion
of futility”). In the context of Medicare, courts also
look to whether “judicial resolution of the issue will
interfere with the agency’s efficient functioning, deny
the agency the ability to self-correct, or deprive the
Court of the benefits of the agency’s expertise and an
adequate factual record.” Nat’l Ass’n for Home Care &
Hospice, 77 F. Supp. 3d at 111 (citing Tataranowicz,
959 F.2d at 275); see also Am. Hosp. Ass’n v. Azar, 348
F. Supp. 3d 62, 75 (D.D.C. 2018), appeal docketed, No.
19-5048 (D.C. Cir. Feb. 28 2019).
Consideration of these factors makes clear that
requiring Plaintiffs to exhaust their administrative
remedies here would be a “wholly formalistic” exercise

53a
in futility. Tataranowicz, 959 F.2d at 274. The
government
does
not
argue
that
further
administrative review is necessary for the agency’s
efficient functioning. Nor does the government argue
that administrative review will give the agency the
opportunity to self-correct. To the contrary, CMS’
interpretation here is “even more embedded” since it
was promulgated through notice-and-comment
rulemaking whereby CMS has already considered and
rejected Plaintiffs’ specific arguments. Nat’l Ass’n for
Home Care & Hospice, 77 F. Supp. 3d at 112; Final
Rule at 59,011-13. Finally, additional administrative
review would do nothing to develop the factual record
or provide the Court with further benefits of agency
expertise, since this case concerns a purely legal
challenge to the scope of the Secretary’s statutory
authority. See Hall v. Sebelius, 689 F. Supp. 2d 10, 2324 (D.D.C. 2009) (“[E]xhaustion may be excused
where an agency has adopted a policy or pursued a
practice of general applicability that is contrary to the
law.” (internal quotations omitted)). Indeed, it does
not appear that further expertise can be brought to
bear since no administrative review body has the
authority to override CMS’ binding regulations. See
42 C.F.R. § 405.1063(a) (“All laws and regulations
pertaining to the Medicare and Medicaid programs
. . . are binding on ALJs and attorney adjudicators,
and the [Medicare Appeals] Council.”); see, e.g.,
Noridian Healthcare Solutions, G0463 Has No Appeal
Rights
(Mar.
22,
2019),
available
at
http://bit.ly/2K2Yw4W (“CMS has provided direction
to the Medicare Administrative Contractors (MACs)
to dismiss requests appealing the reimbursement of
HCPCS G0463. No further appeal rights will be
granted at subsequent levels due to the statutory

54a
guidance supporting the pricing of this HCPCS
code.”). In short, the government “gives no reason to
believe that the agency machinery might accede to
plaintiffs’ claims,” even as it recites the formal steps
involved in administrative review. Tataranowicz, 959
F.2d at 274.
B.

The Outpatient Prospective
System Statutory Scheme

Payment

Plaintiffs argue that if CMS wants to reduce the
payment rate for a particular OPD service, it must
change the relative payment weights and adjustments
through the annual review process, see 42 U.S.C.
§ 1395l(t)(9)(A), in a budget neutral manner, see id.
§ 1395l(t)(9)(B). Alternatively, if CMS wants to reduce
Medicare costs by addressing “unnecessary increases
in the volume of services,” it must first develop a
method to do so, id. § 1395l(t)(2)(F), which it may then
implement across-the-board by adjusting the
conversion factor, see id. § 1395l(t)(9)(C). This
statutory scheme, Plaintiffs argue, is intended to
prevent exactly what happened here: a selective cut to
Medicare funding which targets only certain services
and providers.
The government responds that CMS has authority
to “develop a method for controlling unnecessary
increases” in volume under paragraph (t)(2)(F) and
that this authority is independent of its authority
under paragraph (t)(9)(C) to adjust the conversion
factor. It argues that these two actions are different
and independent cost-control tools in its regulatory
belt. Further, the government argues that CMS may
develop a “method” to set payment rates for a
particular service which is causing an “unnecessary”

55a
increase in cost (and volume) without regard to budget
neutrality, because there is no logical reason Congress
would want CMS to penalize all outpatient
departments—by reducing rates for all OPD
services—for the spike in volume (as measured by
total expenditures) if only one such service caused the
spike.
The government emphasizes that “method” is not
explicitly defined in the statute and argues that its
approach satisfies generic definitions of the term. See,
e.g., Method, Black’s Law Dictionary (11th ed. 2019)
(“A mode of organizing, operating, or performing
something, esp. to achieve a goal.”). But “reasonable
statutory interpretation must account for both ‘the
specific context in which . . . language is used’ and ‘the
broader context of the statute as a whole.’ ” Util. Air
Regulatory Grp. v. EPA, 573 U.S. 302, 321, 134 S.Ct.
2427, 189 L.Ed.2d 372 (2014) (quoting Robinson v.
Shell Oil Co., 519 U.S. 337, 341, 117 S.Ct. 843, 136
L.Ed.2d 808 (1997)). “A statutory ‘provision that may
seem ambiguous in isolation is often clarified by the
remainder of the statutory scheme . . . because only
one of the permissible meanings produces a
substantive effect that is compatible with the rest of
the law.’ ” Id. (quoting United Sav. Ass’n of Tex. v.
Timbers of Inwood Forest Assocs., Ltd., 484 U.S. 365,
371, 108 S.Ct. 626, 98 L.Ed.2d 740 (1988)); see also
King v. Burwell, ––– U.S. ––––, 135 S. Ct. 2480, 2483,
192 L.Ed.2d 483 (2015) (“[O]ftentimes the meaning—
or ambiguity—of certain words or phrases may only
become evident when placed in context.”). As such, the
Court must “read the words ‘in their context and with
a view to their place in the overall statutory scheme.’ ”
King, 135 S. Ct. at 2483 (quoting FDA v. Brown &

56a
Williamson Tobacco Corp., 529 U.S. 120, 133, 120
S.Ct. 1291, 146 L.Ed.2d 121 (2000)); see also Util. Air
Regulatory Grp., 573 U.S. at 320, 134 S.Ct. 2427. That
context does not make clear what a “method” is, but it
does make clear what a “method” is not: it is not a
price-setting tool, and the government’s effort to wield
it in such a manner is manifestly inconsistent with the
statutory scheme. There are two reasons.
First, Congress established an elaborate statutory
scheme which spelled out each step for determining
the amount of payment for OPD services under the
Outpatient Prospective Payment System. As detailed
in 42 U.S.C. § 1395l(t)(4), titled “Medicare payment
amount,” the amount paid “is determined” by: the fee
schedule amount “computed under paragraph (3)(D)”
for the OPD service’s Ambulatory Payment
Classification, adjusted for wages and other factors
“as computed under paragraphs (2)(D) and (2)(E),” see
42 U.S.C. § 1395l(t)(4)(A); less applicable deductibles
under § 1395l(b), see id. § 1395l(t)(4)(B); and modified
by a “payment proportion,” see id. § 1395l(t)(4)(C). The
applicable deductible and “payment proportion” are
fixed by statute and are not relevant to this case, but
the Ambulatory Payment Classification fee schedule
amount is. That amount is the product of the
conversion factor “computed under subparagraph
[(3)(C)]” and the relative payment weight for the
Ambulatory Payment Classification “determined
under paragraph (2)(C).” See id. § 1395l(t)(3)(D). The
base ingredients of an Outpatient Prospective
Payment System payment over which CMS has
discretion are, therefore, the Ambulatory Payment
Classification groups and relative payment weights;

57a
the conversion factor; and the wage adjustment and
other adjustments.
The Court recounts these cross-referencing
provisions—even the irrelevant ones—to make one
thing clear: nowhere is a “method” developed under
paragraph (t)(2)(F) referenced. CMS cannot shoehorn
a “method” into the multi-faceted congressional
payment scheme when Congress’s clear directions
lack any such reference. See Util. Air Regulatory Grp.,
573 U.S. at 328, 134 S.Ct. 2427. (“We reaffirm the core
administrative-law principle that an agency may not
rewrite clear statutory terms to suit its own sense of
how the statute should operate.”). As such, if CMS
wishes to reduce Outpatient Prospective Payment
System payments for E&M services, it must make
budget-neutral adjustments to either that service’s
relative payment weight or to other adjustments
under paragraph (t)(9)(A). Alternatively, CMS may
update the conversion factor to apply across-the-board
cuts under paragraph (t)(9)(C). But nothing in the
adjustment or payment scheme permits servicespecific, non-budget-neutral cuts.
CMS apparently understood this limitation when it
considered other “methods” in the past. For example,
when the Outpatient Prospective Payment System
was first being developed in 1998, CMS evaluated
three possible methods of volume control, all based on
the Sustainable Growth Rate formula which was
enacted by Congress to control the growth of
“physician services” under, ironically, the Physician
Fee Schedule, which is itself also a prospective
payment system. See 63 Fed. Reg. at 47,586. Much
like payment rates for OPD services under the
Outpatient Prospective Payment System, payment

58a
rates for physician services are prospectively set
through a combination of relative resource use,
regional adjustments, and an across-the-board
Physician Fee Schedule conversion factor. The
Sustainable Growth Rate formula set overall target
expenditure levels for physician services based on
changes in enrollment, changes in physician fees,
changes in the legal and regulatory landscape, and
total economic growth, and then manipulated the
Physician Fee Schedule conversion factor to achieve
that targeted level. Two of CMS’ proposals in 1998
would have modified the Sustainable Growth Rate
formula to also account for a measure of OPD service
efficiency as well, while the third proposal would have
developed a similar, independent formula for the
Outpatient Prospective Payment System. All three
proposals would have operated through updates to the
relevant conversion factors under paragraph
(t)(9)(C). 8 Id. at 47,586-87. None of these methods,
based upon a conversion factor calculated using a
Sustainable Growth Rate formula, was implemented.
See Final Rule at 59,005.

8

Plaintiffs argue that here CMS acknowledged “possible
legislative modification” would be necessary to implement any
method other than adjustment to the conversion factor. See Mem.
of P. & A. in Supp. of Pls.’ Mot. for Summ. J. [Dkt. 14-1] at 15;
see also 63 Fed. Reg. at 47,586. As noted in the text, all three
“methods” proposed in 1998 would have adjusted the conversion
factor. Possible legislative modification was discussed because,
for two of the proposed methods, CMS did not itself have the
authority to modify the Sustainable Growth Rate, which
Congress implemented by statute. See 42 U.S.C. 1395w-4(f)
(1999).

59a
Instead, CMS considered and implemented a
different method of volume control known as
“packaging,” whereby “ancillary services associated
with a significant procedure” are “packaged into a
single payment for the procedure.” 72 Fed. Reg.
66,580, 66,610 (Nov. 27, 2007); see also Final Rule at
58,854 (“Because packaging encourages efficiency and
is an essential component of a prospective payment
system, packaging . . . has been a fundamental part of
OPPS since its implementation in August 2000.”).
Packaging incentivizes providers “to furnish services
in the most efficient way by enabling hospitals to
manage their resources with maximum flexibility,
thereby encouraging long-term cost containment.” 72
Fed. Reg. at 66,611; see also 63 Fed. Reg. at 47,586
(“We believe that greater packaging of these services
might provide volume control.”); 79 Fed. Reg. 66,770,
66,798-99 (Nov. 10, 2014) (introducing conceptually
similar “comprehensive APCs”). Unlike the proposed
methods based on a Sustainable Growth Rate formula
that were considered in 1998, packaging does not
control volume by changing the conversion factor and
thereby obviates the need to rely on paragraph (t)(9)
(C), and packaging is implemented in a budget neutral
manner. See, e.g., 72 Fed. Reg. at 66,615 (“Because the
OPPS is a budget neutral payment system[,] . . . the
effects of the packaging changes we proposed resulted
in changes to scaled weights and . . . to the proposed
payments rates for all separately paid procedures.”);
cf. 42 U.S.C. § 1395l(t)(9)(A)-(B).
This history makes it clear that CMS can adopt
volume-control methods under paragraph (t)(2)(F)
which affect payment rates indirectly, even if those
methods cannot affect them directly. Moreover, it

60a
demonstrates that the Court’s interpretation does not
render paragraph (t)(2)(F) mere surplusage, since
some methods do not depend on manipulation of the
conversion factor.
Second, Congress provided great detail in directing
how CMS should develop and adjust relative payment
weights. For example, Congress required that the
initial relative payment weights for OPD services be
rooted in verifiable data and cost reports. Id.
§ 1395l(t)(2)(C). Congress also required CMS to
develop a wage adjustment attributable to geographic
labor and labor-related costs, id. § 1395l(t)(2)(D); an
outlier adjustment to reimburse hospitals for
particularly expensive patients, id. § 1395l(t)(2)(E)
and (t)(5) (detailing further the outlier adjustment); a
transitional pass-through payment scheme for
innovative medical devices, drugs, and biologicals, id.
§ 1395l(t)(2)(E) and (t)(6) (detailing further the passthrough
adjustment);
and
catch-all
“other
adjustments as determined to be necessary to ensure
equitable payments,” id. § 1395l(t)(2)(E). This
extraordinarily detailed scheme results in a relative
payment system which ensures that payments for one
service are rationally connected to the payments for
another and satisfies specific policies considered by
Congress. And so that this system retains its
integrity, CMS is required to review annually the
relative payment weights of OPD services and their
adjustments based on changes in cost data, medical
practices and technology, and other relevant
information. See id. § 1395l(t)(9)(A). Further, CMS is
required to consult with “an expert outside advisory
panel” to ensure the “clinical integrity of the groups
and weights.” Id.

61a
Congress also required that adjustments to the
Outpatient Prospective Payment System be made in a
budget-neutral fashion (with specified exceptions).
Congress itself set the first conversion factor so that
the estimated expenditures for the first year of
payments under the Outpatient Prospective Payment
System would match estimated expenditures for the
same year under the previous system. Id.
§ 1395l(t)(3)(C)(i). Congress further specified that the
wage adjustment, outlier adjustment, pass-through
adjustment, and the “other adjustments” all be budget
neutral. Id. § 1395l(t)(2)(D)-(E). And Congress
directed CMS to make any changes to the groups,
their relative payment weights, or the adjustments
resulting from its mandatory annual review in a
budget-neutral fashion. Id. § 1395l(t)(9)(B).
Notwithstanding this granularity in the statute,
CMS posits that in a single sentence Congress granted
it parallel authority to set payment rates in its
discretion that are neither relative nor budget
neutral. Cf.id. § 1395l(t)(2)(F). But “Congress . . . does
not alter the fundamental details of a regulatory
scheme in vague terms or ancillary provisions—it
does not, one might say, hide elephants in
mouseholes.” Whitman v. Am. Trucking Ass’ns, 531
U.S. 457, 468, 121 S.Ct. 903, 149 L.Ed.2d 1 (2001); cf.
Air Alliance Houston v. EPA, 906 F.3d 1049, 1061
(D.C. Cir. 2018) (“[I]t is well established that an
agency may not circumvent specific statutory limits
on its actions by relying on separate, general
rulemaking authority.”). If CMS reads the statute
correctly, its new-found authority would supersede
Congress’ carefully crafted relative payment system
by severing the connection between a service’s

62a
payment rate and its relative resource use. In the
context of the similarly-designed Physician Fee
Schedule system, Congress expressly denounced this
disconnect. See H.R. Rep. No. 105-149, at 1347-48
(1997) (“As a result, relative value units have become
seriously distorted. This distortion violates the basic
principle underlying the resource-based relative value
scale (RBRVS), namely that each services [sic] should
be paid the same amount regardless of the patient or
service to which it is attached.”). Further, the
structure of the Outpatient Prospective Payment
System makes clear that Congress intended to
preserve “the clinical integrity of the groups and
weights.” 42 U.S.C. § 1395l(t)(9)(A). There is no
reason to think that Congress with one hand granted
CMS the authority to upend such a “basic principle”
of the Outpatient Prospective Payment System while
working with the other to preserve it.9
The government also argues that Congress knew
how to require budget neutrality when it wanted to,
and that its silence in the context of paragraph
(t)(2)(F) is telling. Not only does this argument fail to
address damage to the integrity of the relative
payment system, but in the context of the Outpatient
Prospective Payment System, the reverse is also true:
for decisions within CMS’ discretion that might affect
overall expenditures, Congress made clear when
budget neutrality was not required. See id.

9

CMS’ interpretation would also swallow paragraph (t)(9)(C)
in its entirety: why would the agency go through the annual
hassle of updating the conversion factor if it could use paragraph
(t)(2)(F) to decrease or increase payment rates for disfavored or
favored services whenever desired?

63a
§ 1395l(t)(7)(I) (exempting transitional payments
from budget neutrality); id. § 1395l(t)(16)(D)(iii)
(exempting special payments from budget neutrality);
id. § 1395l(t)(20) (exempting the effects of certain
incentives from budget neutrality); cf. id.
§ 1395l(t)(3)(C) (permitting negative conversion
factors); id. § 1395l(t)(14)(H) (exempting specific
expenditure increases from consideration under
paragraph (t)(9)). As CMS has said, “the OPPS is a
budget neutral payment system.” 72 Fed. Reg. at
66,615. Given how pervasively the statute requires
budget neutrality in the Outpatient Prospective
Payment System, Congress clearly considered effects
on total expenditures critical to that system. Yet
Congress did not mention the budgetary impact of
paragraph (t)(2)(F) at all. The Court concludes that no
such reference was made because Congress did not
intend CMS to use an untethered “method” to directly
alter expenditures independent of other processes. To
the contrary, Congress directed that any “methods”
developed under paragraph (t)(2)(F) be implemented
through other provisions of the statute.10
Finally, the government argues that there is no
reason Congress would have wanted CMS to penalize
all outpatient departments in order to control
10

Paragraph (t)(9)(C) explicitly provides that methods
developed under paragraph (t)(2)(F) may result in adjustments
to the conversion factor because subsection (t)(3), governing the
conversion factor, does not already provide CMS such authority.
Cf. 42 U.S.C. § 1395l(t)(9)(A) (requiring CMS to review and
adjust groups and relative payments weights and adjustments
for OPD services). Put another way, the provision is permissive,
not mandatory, because CMS may choose to implement its
methods through other means.

64a
unnecessary increases in the volume of a single type
of service. Of course, that is exactly what Congress did
when it applied the Sustainable Growth Rate formula
to the Physician Fee Schedule under the Balanced
Budget Act of 1997—the same Act which created the
Outpatient
Prospective
Payment
System—to
disastrous results. See Jim Hahn & Janemarie
Mulvey, Congressional Research Service, Medicare
Physician Payment Updates and the Sustainable
Growth Rate (SGR) System 8 (2012) (“There is a
growing consensus among observers that the SGR
system is fundamentally flawed and is creating
instability in the Medicare program for providers and
beneficiaries.”); id. (“One commonly asserted criticism
is that the SGR system treats all services and
physicians equally . . . to the detriment of physicians
who are ‘unduly’ penalized.”). Congress recognized its
error and repealed the Sustainable Growth Rate
formula,
see
Medicare
Access
and
CHIP
Reauthorization Act of 2015, Pub. L. No. 114-10, 129
Stat. 87, and it has demonstrated that it retains for
itself the authority to make these and similarly
selective funding decisions in this highly complicated
intersection of patient needs, medical care, and
government funding through the relative payment
weight system. See, e.g., Bipartisan Budget Act § 603
(establishing different payment schemes for excepted
and non-excepted PBDs). Here, Congress has
developed a multi-factored, complicated annual
process whereby CMS is to preset relative payments
for OPD services. This annual process would be totally
ignored and circumvented if CMS could unilaterally
set OPD service-specific rates without regard to their
relative position or budget neutrality.

65a
For these reasons, the Court finds that the “method”
developed by CMS to cut costs is impermissible and
violates its obligations under the statute. While the
intention of CMS is clear, it would acquire unilateral
authority to pick and choose what to pay for OPD
services, which clearly was not Congress’ intention.
The Court find that the Final Rule is ultra vires.11
C. Remedies
A brief note on remedies. Plaintiffs not only ask for
vacatur of the Final Rule, but also for a court order
requiring CMS to issue payments improperly
withheld due to the Final Rule. Plaintiffs’ request will
be
denied.
“ ‘Under
settled
principles
of
administrative law, when a court reviewing agency
action determines that an agency made an error of
law, the court’s inquiry is at an end: the case must be
remanded to the agency for further action consistent
with the correct legal standards.’ ” Palisades Gen.
Hosp. Inc. v. Leavitt, 426 F.3d 400 (D.C. Cir. 2005)
(quoting Cnty. of L.A. v. Shalala, 192 F.3d 1005, 1011
(D.C. Cir. 1999)). That said, Outpatient Prospective
Payment System reimbursements are complex and a
third set of plaintiffs in another case challenging the
same rule has raised the spectre of complications
resulting from an order to vacate. See Opposition to
Defendant’s Motion to Stay Proceedings, Sisters of
Charity Hospital of Buffalo, New York v. Azar, No. 191446 (RMC) (July 25, 2019) Dkt. 13. Other courts in
this district have wrestled with the ripple effects of
11

Because the Court concludes that service-specific unilateral
price setting by CMS is not a “method” within the meaning of
the statute, the Court does not reach Plaintiffs’ other
arguments.

66a
vacatur caused by Medicare budget neutrality
provisions and interest payments. See Am. Hosp.
Ass’n, 348 F. Supp. 3d at 85-86 (requiring further
briefing on remedies related to OPPS adjustments);
Shands Jacksonville Med. Ctr., Inc. v. Azar, 2019 WL
1228061, at *2 (D.D.C. Mar. 15, 2019) (addressing
plaintiff-specific interest payments on improper
reimbursement determinations); see also Amgen, 357
F.3d at 112 (“Other circuits have noted the havoc
piecemeal review of OPPS payments could bring
about.”). The Final Rule is less than one year old and
did not apply budget neutrality principles. These
factors should lessen the burden on reconsideration.
Nonetheless, the Court will require a joint status
report to determine if additional briefing is
appropriate.
IV. CONCLUSION
CMS believes it is paying millions of taxpayer
dollars for patient services in hospital outpatient
departments that could be provided at less expense in
physician offices. CMS may be correct. But CMS was
not authorized to ignore the statutory process for
setting payment rates in the Outpatient Prospective
Payment System and to lower payments only for
certain services performed by certain providers.
Plaintiffs’ Motion for Summary Judgment, Dkt. 14,
will be granted. The government’s Cross-Motion for
Summary Judgment, Dkt. 20, will be denied. The
Court will vacate the applicable portions of the Final
Rule and remand the matter for further proceedings
consistent with this Memorandum Opinion. The
parties will be required to submit a joint status report
by October 1, 2019, to determine if additional briefing
on remedies is required, along with the CMS estimate

67a
as to the duration of further proceedings. A
memorializing Order accompanies this Memorandum
Opinion.

68a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_________
No. 19-5352
_________
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Appellees
v.
ALEX M. AZAR, II, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF HEALTH AND HUMAN SERVICES,
Appellant
_________
Consolidated with 19-5353, 19-5354
_________
September Term, 2020
_________
1:18-cv-02841-RMC
_________
Filed On: October 16, 2020
_________
BEFORE: Srinivasan, Chief Judge; and Henderson,
Rogers, Tatel, Garland, Millett, Pillard, Wilkins,
Katsas, Rao*, and Walker, Circuit Judges.

*

Circuit Judge Rao did not participate in this matter.

69a
ORDER
Upon consideration of appellees’ petition for
rehearing en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

70a
APPENDIX D
_________
STATUTORY PROVISIONS INVOLVED
_________
1.

42 U.S.C. § 1395l provides in pertinent
part:
*

*

*

*

*

(t) Prospective payment system for hospital
outpatient department services
*

*

*

*

*

(2) System requirements
Under the payment system—
(A) the Secretary shall develop a classification
system for covered OPD services;
(B) the Secretary may establish groups of
covered OPD services, within the classification
system described in subparagraph (A), so that
services classified within each group are
comparable clinically and with respect to the
use of resources and so that an implantable
item is classified to the group that includes the
service to which the item relates;
(C) the Secretary shall, using data on claims
from 1996 and using data from the most recent
available cost reports, establish relative
payment weights for covered OPD services (and
any groups of such services described in
subparagraph (B)) based on median (or, at the
election of the Secretary, mean) hospital costs
and shall determine projections of the
frequency of utilization of each such service (or
group of services) in 1999;

71a
(D) subject to paragraph (19), the Secretary
shall determine a wage adjustment factor to
adjust the portion of payment and coinsurance
attributable to labor-related costs for relative
differences in labor and labor-related costs
across geographic regions in a budget neutral
manner;
(E) the Secretary shall establish, in a budget
neutral manner, outlier adjustments under
paragraph (5) and transitional passthrough
payments under paragraph (6) and other
adjustments as determined to be necessary to
ensure
equitable
payments,
such
as
adjustments for certain classes of hospitals;
(F) the Secretary shall develop a method for
controlling unnecessary increases in the
volume of covered OPD services;
(G) the Secretary shall create additional
groups of covered OPD services that classify
separately those procedures that utilize
contrast agents from those that do not; and
(H) with respect to devices of brachytherapy
consisting of a seed or seeds (or radioactive
source), the Secretary shall create additional
groups of covered OPD services that classify
such devices separately from the other services
(or group of services) paid for under this
subsection in a manner reflecting the number,
isotope, and radioactive intensity of such
devices furnished, including separate groups
for palladium-103 and iodine-125 devices and
for stranded and non-stranded devices
furnished on or after July 1, 2007.

72a
*

*

*

*

*

(12) Limitation on review
There shall be no administrative or judicial
review under section 1395ff of this title, 1395oo
of this title, or otherwise of—
(A) the development of the classification
system under paragraph (2), including the
establishment of groups and relative payment
weights for covered OPD services, of wage
adjustment factors, other adjustments, and
methods described in paragraph (2)(F);
(B) the calculation of base amounts under
paragraph (3);
(C) periodic
paragraph (6);

adjustments

made

under

(D) the establishment of a separate
conversion factor under paragraph (8)(B); and
(E) the determination of the fixed multiple, or
a fixed dollar cutoff amount, the marginal cost
of care, or applicable percentage under
paragraph (5) or the determination of
insignificance of cost, the duration of the
additional payments, the determination and
deletion of initial and new categories
(consistent with subparagraphs (B) and (C) of
paragraph (6)), the portion of the medicare
OPD fee schedule amount associated with
particular devices, drugs, or biologicals, and the
application of any pro rata reduction under
paragraph (6).
*

*

*

*

*

